0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief of Arizona, Louisiana, and
Twenty-Two Other States as Amici Curiae in Support
of Petitioners in 20-1507, Association of New Jersey
Rifle & Pistol Clubs, Inc.; and Blake Elleman v. Gurbir
S. Grewal, in his Official Capacity as Attorney General
of New Jersey, et al., was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day service and e-mail service to the following
parties listed below, this 28th day of May, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Joseph Fanaroff
Jeremy Feigenbaum
Stuart M. Feinblatt
Bryan E. Lucas
Office of Attorney General of New Jersey
Division of Law
25 Market Street
Hughes Justice Complex
1st Floor, West Wing
Trenton, NJ 08625
(609 376-3201
joseph.fanaroff@njoag.gov
jeremy.feigenbaum@njoag.gov
stuart.feinblatt@law.njoag.gov
bryan.lucas@law.njoag.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Frankl in Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Evan A. Showell
Office of Attorney General of New Jersey
124 Halsey Street
Newark, NJ 07102
973-648-3146
evan.showell@law.njoag.gov
George C. Jones
John H. Suminski
McElroy Deutsch Mulvaney & Carpenter
1300 Mount Kemble Avenue
P.O. Box 2075
Morristown, NJ 07962
973-993-8100
gjones@mdmc-law.com
jsuminski@mdmc-law.com
Carmine Richard Alampi
Jennifer Alampi
Alampi & Demarrais
One University Plaza
Suite 404
Hackensack, NJ 07601
201-343-4600
calampi@alampi-law.com
jalampi@alampi-law.com

Counsel for Respondents

Michael S. Catlett
Deputy Solicitor General
Counsel of Record
Office of the Arizona
Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
michael.catlett@azag.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 27, 2021.

(L

Am~ Mo1gan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebn1-?ry 14, 2023

